                      OFFICE OF INSPECTOR GENERAL
                     CORPORATION FOR NATIONAL AND
                          COMMUNITY SERVICE




                                    Audit of
                    America's Promise - The Alliance for Youth
                          Grant Number 0 1SPHVAOO1


                             Audit Report Number 03- 1I
                                December 18,2002




                                    Prepared by:

                             Office of Inspector General
                   Corporation for National and Community Service
                               1201 New York Avenue
                              Washington, D.C. 20525




This report was issued to Corporation management on March 17, 2003. Under the laws
and regulat ons governing audit follow-up, the Corporation must make final management
decisions on the report's findings and recommendations no later than, September 17,
2003 and complete its corrective actions by March 17, 2004. Consequently, the reported
findings do not necessarily represent the final resolution of the issues presented.
                                                  Audit of
                                  America's Promise - The Alliance for Youth
                                        Grant Number 0 1SPHVA00 1

                                                       Table of Contents



Executive Summary .............................................................................................................
                                                                                                                             1

Backgrounc. ........................................................................................................................
                                                                                                                                 ..I

Objectives, Scope, and Methodology ..................................................................................
                                                                                                                  2

Results ..................................................................................................................................2

Schedule of' Claimed Costs ..................................................................................................5

Appendices

           Ama-ica's Promise - The Alliance for Youth Response.. ............ ..Appendix A

           Corporation Response. ..................................................... ..Appendix B
                                                                                                   --



                                                                                     CORPORATION

                                                                                     FOR NATIONAL




December 114 2002


Mr. Peter A. Gallagher, President and Chief Executive Officer
America's Promise - The Alliance for Youth
909 North M'ashington Street, Suite 400
Alexandria, VA 223 14-1556

We performed a financial related audit of Corporation for National and Community
Service (the Corporation) funds awarded to America's Promise - The Alliance for Youth
(America's Promise). The audit included Grant No. 0 1SPHVA001, a legislative earmark
grant. The audit's objectives were to: (1) examine the costs incurred to determine
whether the amounts incurred and claimed are allowable under the grant agreement, its
terms and conditions, and applicable Federal laws and regulations; and (2) evaluate the
internal conirols over financial reporting to determine if they are adequate to safeguard
Federal funds.

Executive Summary

We question $23,432 in salaries, benefits and travel costs, or approximately .3 percent, of
the $7,483,000 claimed under the grant. These costs were incurred prior to the effective
date of the (iward. We also question $91 1 of interest earned on Federal funds, which
should be re-:urned to the Department of Health and Human Services.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
the National and Community Service Act of 1990, established the Corporation.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements :o State Commissions, nonprofit entities and tribes and territories to assist in
the creation of full- and part-time national and community service programs. Through
these grant el:^, members and volunteers perform service to meet the educational, human,
environmenlal, and public safety needs throughout the Nation.

The Corporation's appropriations legislation for fiscal year 2001, specified that not more
than $7,500,000 of the funds made available to the Corporation shall be made available to
America's Promise - The Alliance for Youth to support efforts to mobilize individuals,




                                                                                 Inspector General
                                                                                 1201 New York Avenue, NW
                                                                                 Washington, I)C 20525
groups, and organizations to build and strengthen the character and competence of the
Nation's youth. This earmark award originally covered the period from May 1, 2001
through May 1, 2002. The Corporation granted a no cost extension through June 30,
2002. On April 24, 2001, the Corporation amended the award to reflect a reduction of
Federal funds due to a .22 percent rescission mandated by Congress. Accordingly, the
grant was reduced by $17,000 to $7,483,000.

Objectives, Scope and Methodology

Our objectiv~:~ were to examine costs incurred to determine whether the amounts incurred
and claimed were allowable under the grant agreement, its terms and conditions, and
applicable Fcderal laws and regulations. In the fiscal year 2001 A-133 audit, this award
was identified and audited as a major program. The A-133 auditors noted no matters
involving noncompliance or internal control over financial reporting. They also noted no
matters invclving noncompliance or internal control over the major programs that it
considered to be material weaknesses. We reviewed the work performed by the outside
auditors and chose to rely on it to avoid duplication of effort. Therefore, we limited our
testing to thc fiscal year 2001 cost reclassification from general funds to the grant, and
testing fiscal year 2002 grant costs to ensure they were being charged appropriately. We
requested and examined documentation supporting the final Financial Status Report and
tested the fAlowing accounts: Salaries and Benefits, Contracted Services, Printing,
Communicalions, Travel, SuppliesIMaterials, Office Rent, and Other.

We performzd our audit in accordance with generally accepted Government Auditing
Standards issued by the Comptroller General of the United States. These standards
require that we plan and perform the audit to obtain reasonable assurance that the grant
funds were spent in accordance with program requirements.
An exit conference was held with America's Promise - The Alliance for Youth
representatikes on December 18, 2002. The issues presented in this report were
discussed. 'The America's Promise and Corporation responses to the draft report are
included as Appendix A and Appendix B respectively.

Results

In our opinion, except for the questioned costs, the costs claimed on Grant No.
OlSPHVAOOl are allowable under the requirements of OMR Circular A-122.

1. Allowability of Costs

We questior.ed $23,432, or approximately .3 percent, of the $7,483,000 charged to the
grant.
The Budget Period for the grant was May 1, 2001 through June 30, 2002. Costs for
salaries and benefits of $22,445 and $987 for travel charged to the grant were incurred
prior to the effective date of the award (i.e., February 2001 thru April 2001). OMB
Circular A-122, Attachment B, No. 38, Pre-Award Costs states, "Pre-award costs are
those incurred prior to the effective date of the award directly pursuant to the negotiation
and in antic.pation of the award where such costs are necessary to comply with the
proposed delivery schedule or period of performance. Such costs are allowable only to
the extent that they would have been allowable if incurred after the date of the award and
only with the written approval of the awarding agency." Also, the Corporation's General
Provision No. 19, Prior Approval Requirement states, "The Grantee must obtain prior
written approval from the Corporation before making any significant changes, such as
transfer of the project effort, changes in objectives, scope of work, or timeline."

2. Interest on Funds

We questioned $91 1 of interest earned on Federal funds, which should be returned to the
Department of Health and Human Services.

The Corporation's General Provision No. 5 - Financial Management Provisions, states,
"The Grantee's financial management systems must be capable of distinguishing
expenditures attributable to the Grant from expenditures not attributable to the Grant".
During fiscal year 2001 grant costs were not recorded separately from operating costs.
Since America's Promise - The Alliance for Youth did not separate grant costs they
could not determine that drawdowns were for immediate needs. After fiscal year 2001
costs were rwlassified it was determined that drawdowns were $159,274 more than the
expenses for that period. The Corporation's General Provision No. 9 - Payments Under
The Award, Part b - Immediate Cash Flow Needs, states, "The amount of advance
payments requested by the Grantee must be based on actual and immediate cash needs in
order to minimize federal cash on hand, in accordance with policies established by the
U.S. Departrnent of the Treasury in 3 1 C.F.R. 205)" Also, as required by Part d of this
Provision, "The Grantee must deposit advance funds received from the Corporation in
federally-inslred, interest-bearing accounts. Earned interest must be remitted annually to
Health and Euman Services-Payment Management System, Rockville, MD 20852."
This report -.s intended solely for the information and use of the Office of Inspector
General, the Corporation's management, and America's Promise -The Alliance for
Youth.




p*nuNnR/;l~*
J. Russell George
Inspector General
Corporation for National and Community Service
Washington, D.C.


Copy to:

Michelle Guillerrnin, Chief Financial Officer
Peg Rosenberry, Director, Office of Grants Management
Dana Rodgel-s, Program Officer
                        SCHEDULE OF CLAIMED COSTS

                            Office of Inspector General
                  Corporation for National and Community Service
                           Grant Number OlSPHVAOOl
                    America's Promise - The Alliance for Youth
                            May 1,2001 -June 30,2002



                                   Claimed       Questioned
                                    Costs          Costs               Notes



Salaries & B znefits

Travel

Supplies

Contractual

Other

Interest Earned


               TOTAL




Note A: An explanation of these questioned costs appears on Page 2 - Page 3 (Results -
Grant No. 0 1 SPHVAOO1).
                  APPENDIX A


America's Promise - The Alliance for Youth Response
March 3,2003

Mr. J. Russell George
Inspector General
Corporation for National and Community Service
Office of Inspector General
120 1 New York Avenue, NW
Washington, DC 20525

Dear Mr. George:

America's Promise - The Alliance for Youth (America's Promise) is pleased to submit its
response to your letter dated February 13, 2003, regarding your audit of costs claimed by
America's Promise under grani number 01SPHVA001. Please allow me to emphasize that
America's Promise is committed to full cooperation with you during the final determination of
questioned costs. We appreciate this opportufiity to respond and hope that the information
enclosed herein is sufficient.

America's Proniise acknowledges that our comments will be included as an appendix to your
final report. Pvior to its issuance, America's Promise respectfully requests an opportunity to
review the final report. Should this not be possible, please notify me as soon as possible.

Thank you in advance for your consideration of our responses and we look forward to hearing
from you. We have enjoyed working with you and your staff, especially Carol Bates and Monica
Cely-Rodriguez.

If you have any questions, please contact me at 703.684.4500.




~ k t e A.
        r ~ d l a ~ l i e r .j   I
President and Chief Executive Officer

Enclosures

cc:    R. Ingram, AP
       C. Curtin, OPI
       Audit File




                                                                              OFFICE OF THE
                                                                           INSPECTOR GENERAL
                    America's Promise - The Alliance for Youth
                          Response to Questioned Costs
                               As of March 3,2003

America's Promise - The Alliance for Youth (America's Promise) herein presents its responses
to the questionelj costs detailed on pages two (2) and three (3) of the drafe audit report.

1. Allowability of Costs:

   Nature of Questioned Cost: In the draft audit report, the Office of Inspector General (OIG)
   questioned costs totaling $23,432. These costs represented salaries and benefits ($22,445)
   and travel ($987) and were disallowed because the costs were incurred prior to the effective
   date of the award.

   America 's Promise 's Respon~e:Subsequent to the completion of audit fieldwork, America's
   Promise re-emxarnined the nature of the expenses questioned by the OIG. We concluded that
   the questioned items directly correlated with the intention and purpose of the CNCS grant
   and would Eave been reimbursable had the expenses been claimed during the period of the
                          , failed to obtain the requisite prior written approval from CNCS to
   grant. H o ~ , e v e r we
   submit pre-award costs for reimbursement.

   E. Renee Ingram, our Chief Financial Officer, contacted Ms. Susan Meche on February 26,
   2003, to discuss our conclusion. Based on the information presented to her, Ms. Meche
   agreed with our conclusion and indicated that CNCS would have granted approval to
   America's F'romise to claim and submit reimbursement for the pre-award costs had the
   request been made. Ms. Meche informed America's Promise that she would contact the OIG
   to discuss her conclusion.

   Accordingly America's Promise respectfully requests that the OIG consider eliminating this
   finding and the resulting questioned costs.


2. Interest on l'unds:

   Nature of Q~~estioned Cost: In the draft audit report, the OIG questioned approximately $91 1.
   This item represented interest on drawdowns made by America's Promise that were in excess
   of immediate, cash needs.

   America's Pmmise's Response: America's Promise accepts this finding. We will disburse
   $91 1 to the U. S. Department of Health and Human Services upon issuance of the OIG's
   final audit re:3ort, unless otherwise instructed by the OIG.
      APPENDIX B


The Corporation's Response
                                    Coraoration for        -



To:            Russell
                    ,-George, Inspector General



                                     Chief Financial Officer

From:                                                 of Grants Management

Date:          March 13,2003

Subject:       Response to OIG Draft Audit Report 03-1 1: Audit of America's Promise - The
               Alliance for Youth, Grant Number 01SPHVA001


We have reviewed the draft audit report of the America's Promise - The Alliance for Youth
(America's Promise) grant number 01SPHVA001. Due to the limited timeframe for response,
we have not yet conducted a comprehensive review or reviewed the work papers. We will
respond to all iindings when the audit is issued and we have reviewed the findings in detail.

However, the audit indicated that America's Promise incurred $23,432 in costs before the stated
grant project pzriod began, not realizing it began later than anticipated. The costs incurred
during the pre-award period were related to the project and in accordance with the proposed
budget. If the grantee had requested approval to incur costs prior to award, the request would
have been granted. OGM will allow the related questioned costs identified in the audit and
advise the grantee during the audit resolution phase that pre-award costs for future grants must
be requested in advance.

The audit also questioned $91 1 of interest that America's Promise earned on Corporation funds.
If, based on the review of the supporting documentation, we determine these costs to be accurate,
OGM will advise the grantee to refund any excess interest earned.




                           1201 New York Avenue, NW * Washington, DC 20525
                                 202-606-5000 * www.nationalservice.org
                           Senior Corps   * AmeriCorps * Learn and Serve America                                       I
                                                                                          The Pres~denl'sCall to S e r v ~ c e
